WAIVE I
!

preme Court, U.S.
FILED

JUN 1 7 2021

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
No. [20-7905
Christopher Knute Skagen

t Oregon State Bar

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

6/17/21

Date:

(Type or print) Name Susan R. Cournoyer

0 Mr.
Firm

Oregon State Bar

Address

P.O. Box 231935

City & State

Tigard, Oregon

Phone

503-431-6324

e

Ms.

0 Mrs.

0 Miss

Zip 97281-1935
Email scournoyer@osbar.org

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is

_RECEIVED

cc:

Christopher Knute Skagen
via email at skagenlaw@gmail.com; and
I JUN 2 2 2021
via USPS Priority International Mail Express at 82 Queens Drive, #12, Lyall Bay, Wellington New
OFF1Cr: n = THE CLERK
Zealand, 6002
_au.E.ILL..„,,,A COURT U.S.

Oregon State .Bar
June 17, 2021

Supreme Court of the United States
Attn: Clerk's Office
1 First Street, NE
Washington, D.C. 20543
Re:

Christopher Knute Skagen v. Oregon State Bar
No. 20-7905-0SB Case No. 18-149
Waiver of Response to Petition for Writ of Certiorari

Dear Clerk:
Enclosed please find Respondent Oregon State Bar's waiver in the
above-referenced matter.
Respondent regrets that this waiver was not filed before the June 2,
2020, deadline for filing a brief in opposition or waiver. Respondent was
never provided a Rule 12.3 notice of the date of filing, date the petition was
placed on the docket, or the docket number, and was therefore unaware until
very recently that the petition for writ of certiorari was on the Court's docket
and that a deadline for a brief in opposition had been set.
Sincerely,

Susan R. Cournoyer
Oregon State Bar No. 863381
Assistant Disciplinary Counsel
(503) 431-6324
scournoyer@osbar.org
SRC:emd
Enclosure
cc: Christopher Knute Skagen, via email at, skagenlaw@qmail.com and
via USPS Priority International Mail Express at, 82 Queens Drive,
#12, Lyall Bay, Wellington, New Zealand, 6022
16037 SW Upper Boones Ferry Road, PO Box 231935, Tigard, Oregon 97281-1935
(503) 620-0222 or (800) 452-8260

Regulatory Services fax (503) 968-4457

www.osbar.org

